U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL TECHNICAL
        INFORMATION SERVICE

            Management Over Interagency and
                   Other Special Agreements
              Requires Further Improvements

                                Final Inspection Report
                              No. IPE-11021/June 1999




                           PUBLIC
                           RELEASE



            Office of Inspections and Program Evaluations
